                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                SOFIA: NASA’s Stratospheric
                  Observatory for Infrared
                        Astronomy




                             OFFICE OF AUDITS
IG-14-022
                                 AUDIT REPORT
(A-13-015-00)                    JULY 9, 2014
Final report released by:




Paul K. Martin
Inspector General




Acronyms

DLR          Deutsches Zentrum für Luft- und Raumfahrt
FOC          Full Operational Capability
FY           Fiscal Year
OIG          Office of Inspector General
SOFIA        Stratospheric Observatory for Infrared Astronomy
USRA         Universities Space Research Association


                                                                REPORT NO. IG-14-022
JULY 9, 2014




                                                                                            OVERVIEW

           SOFIA: NASA’S STRATOSPHERIC OBSERVATORY FOR
                      INFRARED ASTRONOMY
                                                                                              The Issue

   In February 2014, NASA’s Stratospheric Observatory for Infrared Astronomy (SOFIA)
   reached full operational capability (FOC) after a problematic 23-year development
   history and a cost of $1.1 billion
   – more than 300 percent over                          Figure 1. SOFIA in Flight
                                      1
   original estimates (see Figure 1).
   The SOFIA Program’s $3 billion
   life-cycle cost estimate, which
   includes a planned 20-year
   operational life and annual
   operating costs of approximately
   $80 million (equating to an
   annual operating cost of about
   $104,000 per planned research
   flight hour), makes it one of the
                                          Source: NASA.
   most expensive programs in
   NASA’s science portfolio.2 While the Program achieved FOC ahead of schedule (per the
   latest replan) and SOFIA has recently begun to collect science data, maintaining user
   interest is critical to the Program’s viability for the next 20 years.3 More pressing for the
   Program is the uncertainty caused by the President’s fiscal year (FY) 2015 budget
   proposal that would place SOFIA in storage for an undefined period unless NASA
   identifies partners to help subsidize operating costs.4

   1
       NASA introduced the FOC milestone to represent SOFIA’s transition to its operational phase and define
       the SOFIA Program’s capability in terms of the number of operational instruments (four) and the science
       hours it is capable of performing. A second FOC milestone called FOC+4 represents a point in time
       4 years after the Program achieves FOC. According to NASA, by FOC+4, SOFIA should support at
       least 40 research teams per year and achieve 960 research flight hours per year.
   2
       Estimated annual operating cost / planned NASA annual research flight hours = annual operating cost per
       planned research flight hour ($80 million / 768 = $104,167). NASA operates the SOFIA Program in
       cooperation with a foreign partner – the Deutsches Zentrum für Luft- und Raumfahrt, the German
       Aerospace Center. Their planned flight hours and costs are not included in these figures.
   3
       In October 2010, NASA replanned the Program budget and schedule, establishing that FOC would be
       reached in December 2014 with estimated life-cycle costs of $3.016 billion.
   4
       On May 30, 2014, the full House of Representatives approved a FY 2015 funding bill for NASA that
       provides $70 million to support SOFIA’s fixed costs and a base level of scientific observation while
       NASA seeks partners to supplement the Program’s funding. On June 5, 2014, the U.S. Senate
       Committee on Appropriations passed its version of NASA’s FY 2015 spending bill, which included
       $87 million for the SOFIA Program.


REPORT NO. IG-14-022
                                                                                                           OVERVIEW



     SOFIA is the successor of NASA’s Kuiper Airborne Observatory (Kuiper), which flew
     from 1974 to 1995.5 Managed by the Science Mission Directorate’s Astrophysics
     Division, the airborne observatory is fitted with a 2.7-meter (approximately 9-foot)
     telescope mounted onboard a Boeing 747SP that operators expose to the night sky
     through a uniquely designed cavity door located at the rear of the plane.6

     NASA designed SOFIA to study the universe in the infrared region of the
     electromagnetic spectrum, and it can observe both infrared and visible wavelengths from
     0.3 to 1,600 microns (see Figure 2).7 The observatory is particularly well suited for
     investigating the formation of massive stars and the environment surrounding stars that
     leads to the formation of planets.

                    Figure 2. SOFIA’s Coverage in the Electromagnetic Spectrum




     Source: NASA Office of Inspector General presentation of SOFIA superimposed on NASA’s electromagnetic
     spectrum diagram.

     Compared to ground-based observatories, such as the Mauna Kea Observatories in
     Hawaii that sit about 14,000 feet above sea level, SOFIA can observe from altitudes
     exceeding 40,000 feet – above 99 percent of water vapor that interferes with
     ground-based infrared observations. However, unlike space-based observatories, such as
     NASA’s Spitzer Space Telescope, SOFIA’s science instruments are interchangeable after


     5
         Kuiper was a modified C-141 aircraft and featured a reflecting telescope that was about three times
         smaller than the telescope installed on SOFIA. Kuiper flew more than 1,400 flights before NASA
         decommissioned the observatory in the fall of 1995 to make way for SOFIA.
     6
         The Boeing 747SP, or “special performance,” is a modified version of the Boeing 747 jet airliner. It has
         a shortened fuselage making it lighter thus permitting longer range and increased speed relative to other
         747 configurations.
     7
         A micron is a unit of length equal to one millionth of a meter, or 10-6 meter. Infrared region is in
         wavelength between 0.7 micron (7 ten-millionth of a meter, or 0.7 X 10-6 meter) and 1,000 micron
         (one millimeter, or 10-3 meter).



ii                                                                                           REPORT NO. IG-14-022
OVERVIEW



   each mission.8 NASA currently has five instruments fully commissioned and plans on
   commissioning two more by the end of 2015. In addition to its ability to observe a
   wide-range of the infrared spectrum, SOFIA is a mobile observatory capable of flying on
   short notice to any part of the globe to achieve optimal viewing of one-time events, such
   as passing comets. SOFIA can also incorporate newly developed instruments as well as
   upgrades to existing instruments with relative ease, allowing it to react quickly to
   advancements in technology.

   Given SOFIA’s troubled development history and projected $2 billion in operational
   costs over the next 20 years, we assessed whether NASA is adequately managing the
   Program to ensure long-term demand for and viability of the observatory. Our audit
   work included reviewing SOFIA Program policies and procedures, interviewing Program
   officials, and observing a science flight.9 We also interviewed scientists who have used
   SOFIA to conduct research, as well as scientists whose proposals were not selected for a
   flight. Details of the audit’s scope and methodology are in Appendix A.

                                                                                                  Results

   We found that despite substantial delays in reaching operational capacity, SOFIA remains
   capable of contributing to the scientific body of knowledge and many in the science
   community view the observatory as a valuable resource. However, we understand that
   the SOFIA Program is competing for limited resources and policymakers will have to
   decide whether other NASA projects are a higher scientific and budgetary priority. If the
   decision is made to continue the Program, we identified several challenges SOFIA will
   face going forward. For example, NASA needs to ensure a consistent infusion of new
   technology, revise the methodology for calculating researcher funding, and re-evaluate
   the number of research hours SOFIA can fly per year. In addition, we identified
   organizational and contractual issues that may make it difficult for the SOFIA Program to
   ensure adequate oversight of its contractor and achieve cost efficiencies. These issues are
   valid whether SOFIA continues to operate for the next 20 years or is stored and later
   reactivated.

   SOFIA Managers Need to Address Several Issues to Ensure the Best Possible
   Return on Investment. Based on our analysis of SOFIA information and interviews
   with Program managers and the research community, we found that SOFIA is capable of
   adding to the scientific body of knowledge and many in the research community view the
   observatory as a valuable resource. However, we identified seven issues that could
   potentially reduce demand for the observatory and ultimately affect its long-term
   performance:



   8
       Launched in August 2003, the Spitzer Space Telescope is an 85 centimeter, space-based infrared
       telescope studying objects in our solar system and the universe from 3 to 180 microns.
   9
       One of the primary targets of the flight was the newly discovered supernova in the M-82 galaxy.



REPORT NO. IG-14-022                                                                                        iii
                                                                                    OVERVIEW



        More Frequent Infusion of New Technology. SOFIA’s ability to update its
         technology is one of its unique advantages compared to other observatories,
         particularly space-based telescopes. This feature provides the observatory with
         the flexibility to improve its instruments and perform important science
         throughout its expected 20-year operational life. Accordingly, the Program must
         ensure frequent technology updates. However, the current funding profile
         provides for new technology updates approximately every 4 years instead of on a
         2-year cycle, which some managers believe is more appropriate to ensure the
         Program maintains the research community’s interest and participation.

        Lack of a Formal Outreach Plan to Engage Science Community. The Program
         does not have a formal plan to manage its scientific outreach efforts, and although
         it has made efforts to engage the science community, these efforts are ad-hoc and
         lack a formal mechanism to plan, track, and evaluate outreach activities.
         A formal outreach plan, similar to those employed by other NASA programs,
         could help ensure that Program management plans and budgets for a specific
         amount of outreach each year and monitors its efforts to ensure they are effective
         and cost efficient.

        Insufficient Funding to Complete Research Projects. SOFIA’s methodology for
         calculating research funding results in awards that are not commensurate with the
         complexity and uniqueness of the observatory. NASA modeled SOFIA’s
         research funding structure on the model used for the Spitzer Space Telescope
         Program, and all selected proposals receive funding at the same hourly rate.
         However, unlike Spitzer, SOFIA observations vary greatly in their complexity.
         Seven of eight science community members that received funding cited
         insufficient funding as an issue that may prevent them from completing the work
         necessary to analyze SOFIA-generated data and publish articles in peer-reviewed
         journals.

        Lack of Timely Data. The SOFIA Program has not met its schedule for delivering
         data products to researchers. The Program’s latest “Call for Proposals” identifies
         a timetable for delivery for various levels of data. For example, as of January
         2014, about 30 percent of collected data was not delivered to researchers within
         the prescribed timelines. Significant delays in data delivery could negatively
         impact the Program by frustrating the research community, delaying researchers
         from conducting follow-up investigations, and dissuading them from pursuing
         future observations.

        No Formal Rescheduling Process for Cancelled Observations. Similar to most
         major observatories, SOFIA has a relatively strict policy of not rescheduling
         missed observation flights caused by bad weather, aircraft mechanical issues, or
         other unforeseen circumstances. Nevertheless, the Program was able to
         reschedule several flights cancelled due to the October 2013 Federal Government
         shutdown. An ad-hoc team of scientists – assembled and led by the Program’s
         Science Mission Operations Center Director – made the decision regarding which


iv                                                                       REPORT NO. IG-14-022
OVERVIEW



              flights to reschedule. While this process provided additional opportunities for
              some observations, we believe development of a formal process would help
              avoid the perception of preferential treatment when identifying and rescheduling
              missed flights.

             Research Flight Hour Requirement May Not Provide Most Efficient Use of the
              Observatory. In 1996, NASA established what it believed to be an efficient goal
              for observation time and based SOFIA’s development on an annual operational
              requirement of 960 research flight hours for the observatory’s 20-year lifetime.10
              Our assessment of the assumptions used to establish this requirement indicated
              the data is outdated, may no longer reflect the most efficient use of NASA
              resources, and should be reassessed when establishing operational performance
              expectations. For example, SOFIA is exceeding both its planned science flight
              hours per flight and the operational reliability percentage used in the original
              calculations – strong indications that SOFIA has the potential for completing
              more than 960 research flight hours per year. In light of SOFIA’s annual
              operating cost of approximately $104,000 per planned research flight hour, NASA
              should establish an optimal operational requirement for observation time that is
              balanced between quality of science and other competing priorities – such as
              technology upgrades and researcher funding – to maximize use of the
              observatory.

             Periodic Assessments Needed to Assess Cost Efficiency of SOFIA’s Science. The
              SOFIA Program has no formal process to review SOFIA’s cost efficiency in
              terms of science return during its operations phase. Although SOFIA’s Program
              Plan provides for biannual Program Implementation Reviews, these do not
              address the amount of “good science” the observatory has collected on a
              per-dollar basis nor do they compare SOFIA to other operating missions.
              NASA’s Senior Review process occurs every two years and uses this metric for
              missions that have completed their primary mission requirements and are being
              considered for an extended mission. However, because of SOFIA’s unusually
              long 20-year operational life cycle and relatively high operating costs, we
              suggest that NASA not wait to perform a “science per dollar” review similar to a
              Senior Review.

   Organizational Structure May Not Provide Adequate Oversight of Mission Critical
   Functions. In conjunction with SOFIA’s transition to its planned 20-year operational
   phase, NASA intends to reorganize the Program’s management structure and,
   subsequently, its contract with Universities Space Research Association (USRA).
   However, the planned organizational structure does not provide adequate management
   and oversight of the Science Mission Operations Center, which is operated by a



   10
        NASA plans for SOFIA to increase the number of flight hours over time and fly 960 research hours – in
        a typical operation year that does not include heavy maintenance tasks – in years FOC+4 and later.



REPORT NO. IG-14-022                                                                                            v
                                                                                                    OVERVIEW



     contractor.11 Additionally, the current contract does not provide mechanisms to ensure
     adequate NASA management and oversight of mission critical functions (such as
     ensuring that a civil servant direct and authorize the contractor’s work) as defined by the
     Office of Federal Procurement Policy. Furthermore, NASA should consider alternatives
     to the current cost-plus-fixed-fee contract when the USRA contract expires in 2016.
     Proceeding into the operational phase with an organizational structure and contract type
     that does not provide management with the proper tools to manage USRA responsibilities
     may not be the most effective and cost efficient option for the Program going forward.

     Uncertainty Surrounding SOFIA’s Future Funding has Immediate Ramifications
     on the Program. The President’s FY 2015 budget proposal for NASA would sharply
     reduce funding for SOFIA and place the observatory in storage unless partners help
     subsidize NASA’s share of the Program’s $80 million annual operating costs. In
     contrast, the full House of Representatives approved $70 million and the Senate
     Committee on Appropriations proposed $87 million for SOFIA in FY 2015. In this
     period of uncertainty, the Program must address a series of immediate challenges,
     including whether and how to plan for a Program shutdown and possible reactivation,
     how to retain key staff, and whether to move forward with planned research and
     maintenance activities.

                                                                           Management Action

     In order to ensure long-term demand for and viability of SOFIA if it continues in
     operation, we recommended the Associate Administrator for the Science Mission
     Directorate formulate an optimal plan for new instruments and technology and establish a
     timeline for SOFIA to enter the Senior Review process. We also recommended the
     Associate Administrator direct SOFIA Program managers to develop plans to conduct
     outreach to the scientific community, fund research projects based on complexity, and
     reduce the backload of observational data; implement a formal review process for
     rescheduling flights; reassess annual research flight hour requirements, the
     appropriateness of SOFIA’s planned organizational restructuring, and the existing
     contract with USRA; and, in anticipation of the end of the current contract with USRA,
     consider whether a fixed-price contract would be more appropriate than the current
     cost-plus-fixed-fee contract.

     In response to a draft of our report, the Associate Administrator concurred with our
     recommendations and proposed corrective actions. We consider the Associate
     Administrator’s proposed corrective actions to be responsive to our recommendations and
     will close the recommendations upon completion and verification of those actions. We
     incorporated management’s technical comments on our draft into the final report as
     appropriate and have reprinted the comments in full in Appendix C.


     11
          The SOFIA Science Mission Operations Center, located at NASA’s Ames Research Center, is
          responsible for coordinating research activities with the science community.



vi                                                                                    REPORT NO. IG-14-022
JULY 9, 2014




                                                         CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 8

   RESULTS
      If Continued, the SOFIA Program Faces Challenges to Ensure
          the Best Possible Return on Investment _________________ 9
      Organizational Structure Does Not Provide Adequate
        Oversight of Mission Critical Functions _________________ 20
      Uncertainty Surrounding SOFIA’s Future Funding has
        Immediate Ramifications on the Program _______________ 25

   APPENDIX A
      Scope and Methodology _______________________________ 29
      Review of Internal Controls ____________________________ 29
      Prior Coverage ______________________________________ 29

   APPENDIX B
      SOFIA’s Instrument Suite _____________________________ 31

   APPENDIX C
      Management Comments ______________________________ 32

   APPENDIX D
      Report Distribution ___________________________________ 36




REPORT NO. IG-14-022
JULY 9, 2014




                                                                                      INTRODUCTION


Background

   NASA’s Stratospheric Observatory for Infrared Astronomy (SOFIA) is an
   airborne-observatory designed to study the universe in the infrared region of the
   electromagnetic spectrum. SOFIA facilitates research of diverse cosmic environments
   and collects data to advance understanding of the structure and evolution of the universe.
   The observatory is particularly well suited for investigating the formation of massive
   stars and the environment that leads to the formation of planets.

   Built within the frame of a Boeing
   747SP, SOFIA contains an                               Figure 3. Cutaway Showing SOFIA
   internally mounted 2.7-meter                                     Configuration
   (approximately 9-foot) telescope
   that operators expose to the night
   sky through a uniquely designed
   cavity door located at the rear of
   the plane (see Figure 3).12

   Relative to space and
   ground-based observatories,
   SOFIA is mobile and flexible.
   The observatory can be flown to
   any part of the world and achieve
   altitudes exceeding 40,000 feet,
   allowing SOFIA to avoid water
   vapor in the lower atmosphere       Source: NASA.
   that can interfere with infrared
   observations from even the highest-altitude ground-based observatories, such as Hawaii’s
   Mauna Kea Observatories located about 14,000 feet above sea level. Moreover, unlike
   space-based telescopes, SOFIA returns to Earth after each mission enabling researchers
   to test new instruments and take advantage of new technology as it becomes available.

   NASA’s Science Mission Directorate manages the overall SOFIA Program from NASA
   Headquarters. NASA maintains and operates SOFIA from Armstrong Flight Research
   Center (Armstrong), while all of the Program’s science operations, including the office
   that processes the data obtained during observations, are located at Ames Research
   Center (Ames).

   12
        The Boeing 747SP, or “special performance,” is a modified version of the Boeing 747 jet airliner. It has
        a shortened fuselage making it lighter thus permitting longer range and increased speed relative to other
        747 configurations.



REPORT NO. IG-14-022                                                                                                1
                                                                                                                        INTRODUCTION



    Development History. As illustrated in Figure 4, NASA spent more than 17 years
    developing SOFIA – 13 years longer than originally planned. The Program experienced
    significant cost increases and schedule delays during development that resulted in a
    rebaseline and replan, a major reorganization, geographic relocations, and multiple
    budget revisions before reaching full operational capability (FOC) in February 2014.

                                                 Figure 4. SOFIA Timeline

                                                                   Telescope            SOFIA’s 747
                                                Initial
           Contract awarded to USRA for:        SOFIA              arrived in           was flown
           • Development                        delivery           Waco, TX from        to                      SOFIA deployed to
           • Aircraft purchase                  goal.              Germany.             Armstrong.              New Zealand.




           1991      1996        1997           2001              2002        2006      2007      2010           2013       2014




           Program            Development                  •     Program funding withheld             First science     Achieved Full
           formulation        in design/build                    for FY2007.                          flight flown.     Operational
                                                                                                                        Capability in
           started.           began.                       •     Funding was reinstated in
                                                                                                                        February
                                                                 2006.
                                                           •     NASA took control of the
                                                                 Program assigning some
                                                                 aspects to Armstrong and
                                                                 others to Ames.


                                                               Elapsed time: 23 years

    Note: Universities Space Research Association (USRA)
    Source: Office of Inspector General analysis of the SOFIA Program timeline.

    Annual operating costs for SOFIA are approximately $80 million, making it the second
    most expensive operating mission for NASA’s Astrophysics Division after the Hubble
    Space Telescope (Hubble). NASA operates the SOFIA Program in cooperation with a
    foreign partner – the Deutsches Zentrum für Luft- und Raumfahrt (DLR), the German
    Aerospace Center. In December 1996, NASA and the DLR entered into a cooperative
    agreement pursuant to which the DLR received 20 percent of SOFIA observation time in
    exchange for providing the telescope assembly, aircraft engine upgrades, aircraft
    repainting, and two science instruments. Now that SOFIA is operational, DLR also
    provides mission support staff and covers fuel costs for German research flights and
    20 percent of overall operating costs.13

    Also in December 1996, NASA awarded a cost-plus-award-fee contract to Universities
    Space Research Association (USRA) under which USRA is responsible for all major
    aspects of the SOFIA Program, including management, development, implementation,
    13
         In April 2006, NASA estimated the value of DLR’s life-cycle contribution to SOFIA at approximately
         $323 million; however, the Agency does not have an updated figure.



2                                                                                                             REPORT NO. IG-14-022
INTRODUCTION



   and operation of the aircraft platform and science functions. The contract included both
   positive and negative performance incentives that rewarded USRA for being under
   budget or exceeding standard performance levels, but penalized the company in the event
   of cost overruns or failure to meet standard performance levels. USRA subcontracted
   tasks associated with modifying the Boeing 747SP to accommodate the telescope to
   L-3 Communications Corporation and maintenance of the plane to United Airlines.

   As early as 1998 – about 2 years into development – the SOFIA Program began to
   experience schedule delays, and cost overruns were evident as early as 2000. In
   November 2004, an Independent Cost, Schedule, and Management Review found NASA
   lacked sufficient insight into Program development; overlaps among NASA, prime
   contractor, and subcontractor responsibilities; and a lack of cohesiveness in the systems
   engineering function. Soon thereafter, in February 2005, NASA issued a stop-work order
   on the contract due to aircraft maintenance mishaps and quality assurance issues. Work
   resumed in March 2005 after L-3 Communications Corporation replaced a subcontractor
   and NASA assumed oversight of the quality assurance process.

   By 2006, the SOFIA Program had been in development for 10 years and was about
   5 years behind schedule. Contract value for the USRA prime contract was approximately
   $528 million, or about $217 million over the original contract value. In February of that
   year, the President released a fiscal year (FY) 2007 budget that withheld funding from the
   Program and NASA formed an independent team to assess the Program’s status and
   options for moving forward. Following issuance of the team’s report, NASA reinstated
   the SOFIA Program with a reorganized management structure. Specifically, the Agency
   assumed control of observatory platform development and assigned science operations to
   Ames and responsibility for aircraft maintenance, quality assurance oversight, and
   systems engineering to Armstrong. In addition, NASA renegotiated the contract with
   USRA to cover only the science and operational aspects of the Program and directly
   contracted with L-3 Communications Corporation to finish development.

   NASA rebaselined the SOFIA Program in July 2007, establishing a total life-cycle cost
   estimate of $2.95 billion – $955 million for formulation and development and $2 billion
   for 20 years of operations. At that time, the Agency estimated the observatory would
   reach FOC in December 2013. Pursuant to Program guidelines, FOC occurs when the
   observatory has four operating science instruments and is capable of conducting
   observations for 6 hours per flight.14




   14
        A second FOC milestone called FOC+4 represents a point in time 4 years after the program achieves
        FOC. According to NASA Headquarters Level 1 requirements, by FOC+4 SOFIA should support at
        least 40 research teams per year and achieve 960 research flight hours per year. Level 1 requirements are
        fundamental requirements developed by senior Program management or NASA Headquarters.



REPORT NO. IG-14-022                                                                                                3
                                                                                                      INTRODUCTION



    In March 2009, the NASA Office of Inspector General (OIG) issued a report that found
    SOFIA Program management had not completed actions required to address long-term
    servicing needs of the aircraft, had not requested an independent cost estimate, and
    lacked an effective process to evaluate the Program’s cost efficiency in meeting schedule
    milestones.15 The Program implemented the OIG’s recommendations for corrective
    action to address those findings.

    Because of delays relating to the cavity door system, in October 2010, NASA increased
    development cost estimates for the Program to $1.1 billion and delayed FOC to
    December 2014. Although development costs have exceeded the FY 2007 rebaseline
    amount by approximately 20 percent, a decrease in expected operations costs have kept
    total life-cycle cost estimates at about $3 billion or within approximately 0.7 percent of
    the 2007 estimate.

    Unique Capabilities. NASA designed SOFIA to test, use, and serve as a laboratory for a
    wide range of astronomical instruments – typically cameras and spectrographs – attached
    to the observatory’s telescope.16 Instruments can be switched out as the objective of each
    mission changes and, on average, the Program changes instruments every 2 weeks. This
    capability offers an advantage over space-based telescopes in that SOFIA can incorporate
    newly developed instruments as well as upgrades to existing instruments with relative
    ease, react quickly to advancements in technology and new science opportunities, and
    serve as a test bed for troubleshooting and experimentation. Moreover, its suite of
    instruments and ability to fly to specific locations at particular times enables SOFIA to
    execute observations, especially occultations, not possible or practical to conduct from
    other ground- and space-based observatories.17 Moreover, unlike space-based
    observatories SOFIA can return to Earth to resupply cryogen stores when they run low.18

    SOFIA’s long operational life and ability to capture an extensive wavelength range are
    also unique in the area of infrared spectroscopy. As illustrated in Figure 5, SOFIA is
    designed to cover a wider range of wavelengths for a longer period than other existing or
    planned infrared observatories.




    15
         NASA OIG, “Final Memorandum on Audit of the Stratospheric Observatory for Infrared Astronomy
         (SOFIA) Program Management Effectiveness” (IG-09-013, March 27, 2009).
    16
         A spectrograph is an instrument used to disperse light waves into a spectrum for analysis.
    17
         An occultation occurs when one object is hidden by another object that passes between it and the
         observer.
    18
         Cryogen is a coolant used to make infrared detectors more sensitive to infrared radiation.



4                                                                                           REPORT NO. IG-14-022
INTRODUCTION



                     Figure 5. Wavelength Capabilities of Infrared Observatories




   Note:      NICMOS – Near Infrared Camera and Multi-Object Spectrometer installed on Hubble; WFC3 – Wide Field
              Camera 3 installed on Hubble; Akari – Japanese telescope whose name translates to “light;” WISE – NASA’s
              Wide-field Infrared Survey Explorer; JWST – NASA’s planned James Webb Space Telescope; Spica – Japan’s
              planned Space Infrared Telescope for Cosmology and Astrophysics.
   Source: NASA SOFIA Program management.

   Observation Proposal and Selection. NASA’s process for selecting researchers to use
   SOFIA begins when the SOFIA Project Scientist (NASA) and the SOFIA Mission Office
   Center Director (USRA) issue a joint “Call for Proposals.”19 In response, interested
   researchers submit a science justification, feasibility analysis, and high-level description
   of their proposed targets and the amount of observation time required. These documents
   are peer reviewed by a panel comprised of members of the astronomical community, and
   then the Science Mission Operations Center Director selects proposals that will be
   considered for scheduling.

   Selected proposers provide the Director and the SOFIA instrument team detailed
   information relating to their planned observations and a budget summary with narrative
   descriptions. U.S. institutions and U.S. co-investigators on non-U.S. proposals are
   eligible for a NASA grant to help defray expenses. According to the latest Call for

   19
        In coordination with the NASA process, DLR performs a separate selection for scientists affiliated with
        German institutions.



REPORT NO. IG-14-022                                                                                                     5
                                                                                                   INTRODUCTION



    Proposals, preference is given to researchers who propose substantial investigations that
    show potential to demonstrate significant scientific impact.

    Science Instrument Classifications and Data Rights. NASA planned a suite of seven
    research instruments for SOFIA, each with a different capability for varying types of
    observational targets. All of SOFIA’s instruments undergo a commissioning process that
    entails multiple flights and testing to work out any problems before the Program makes
    them fully available to the scientific community. The data collected from these
    instruments is processed and refined using unique software developed by the SOFIA
    Program’s Science Center at Ames. Ames provides the refined data to the researchers,
    which is generally accessible in a public database after a proprietary period of 12 months.
    NASA classifies SOFIA’s instruments in three categories:

              Facility-class instruments are operated and maintained by Science Mission
               Operations staff at Ames to support research by general investigators.20 The
               Program has commissioned two of three planned Facility-class instruments, with
               the final instrument planned for 2015.

              Principal Investigator-class instruments are developed and maintained by an
               instrument team who operate the instruments for their own use (i.e., as principal
               investigators). General investigators may also submit proposals to use these
               instruments. The Program has commissioned two of three planned Principal
               Investigator-class instruments, with the final instrument planned for 2014.

              The Program commissioned one Special Purpose Principal Investigator-class
               instrument in 2013. Special Purpose instruments are designed for observations
               not practical with the other two classes of instruments. The principal investigator
               team responsible for development will operate the instrument and accommodate
               general investigators with approved proposals.

    See Appendix B for additional information on SOFIA’s instruments.

    Current Operational Status. The Program completed its FOC milestone requirements
    in February 2014 – 9 months ahead of the December 2014 date promised to Congress
    (see Figure 6). In meeting the FOC criteria, the Program commissioned four of the
    seven planned science instruments and commissioned the fifth in April 2014. The
    Program expects to commission the sixth and seventh instruments by the end of 2015.




    20
         General investigators are researchers awarded observing time through SOFIA’s peer-review process.
         They are not required to collaborate with the instrument team for Facility-class instruments but are
         generally required or encouraged to partner with the science instrument team of Principal
         Investigator-class or Special Purpose Principal Investigator-class instruments.



6                                                                                          REPORT NO. IG-14-022
INTRODUCTION



                                       Figure 6. SOFIA in Operations




   Source: OIG flight observation on February 24, 2014.

   By March 2014, the Program had completed its first cycle of science observations and
   was in the middle of its second cycle. Each observation cycle corresponds to a calendar
   year. During each of the past 2 years, research demand has outstripped SOFIA’s
   capacity.

   In 2013 (Observation Cycle-1), the Program completed 25 flights and 175 research flight
   hours. For that cycle, NASA received research proposals that would have required
   six times the number of available hours. In 2014 (Observation Cycle-2), the Program has
   25 flights and 206 research flight hours planned. For that cycle, proposals surpassed
   available research hours by a factor of three.

   President’s 2015 Budget Proposal. On March 4, 2014, the President released his
   FY 2015 budget and proposed placing SOFIA into storage unless NASA identifies
   partners to subsidize the observatory’s estimated $80 million per year operating costs.
   The budget submission offered the following explanation for the proposal:

            Due to its high annual operating cost, the Administration greatly reduces funding for
            the . . . SOFIA project. SOFIA has encountered technical and schedule challenges,
            and while the observatory will address emerging scientific questions, its contributions
            to astronomical science will be significantly less than originally envisioned. Funding
            for SOFIA, which costs almost $80 million per year to operate, can have a larger
            impact supporting other science missions.

   According to senior officials in NASA’s Science Mission Directorate and the Office of
   the Chief Financial Officer, the decision to reduce funding for SOFIA was made because
   of cuts to the Astrophysics Division budget that resulted in the Directorate prioritizing
   other science projects ahead of SOFIA. They further explained that Office of
   Management and Budget direction regarding implementation of proposed reductions in
   NASA’s overall budget was to apply the cuts to a smaller number of lower-priority
   programs rather than spreading the cuts across a larger number of projects. According to
   these officials, the $12.3 million funding proposed by the President for FY 2015 is a
   rough estimate of the cost of labor for that year.




REPORT NO. IG-14-022                                                                                  7
                                                                                                  INTRODUCTION



    However, the future of the SOFIA Program remains uncertain as the annual
    appropriations process moves forward. On May 30, 2014, the House of Representatives
    approved a FY 2015 funding bill for NASA that provides $70 million to support SOFIA’s
    fixed costs as well as a “base level of scientific observation” while NASA seeks partners
    to supplement the observatory’s funding and restore the Program budget to full
    operational level.21 In doing so, the House Appropriations Committee expressed the
    opinion that the observatory is “currently producing good science” and noted that it has
    not been proposed for termination by NASA’s “internal or external scientific review
    boards.” On June 5, 2014, the U.S. Senate Committee on Appropriations passed its
    version of NASA’s FY 2015 spending bill, which included $87 million for the SOFIA
    Program.22 In addition, on June 9, 2014, the full House of Representatives passed its
    version of the 2014 NASA Authorization Act that included language added by the House
    of Representatives Committee on Science, Space, and Technology that would prohibit
    NASA from using FY 2014 funds to begin shutting down the SOFIA Program.23 At the
    same time, NASA continues to seek partners to share operating costs.

Objectives
    Given SOFIA’s troubled development history and projected $2 billion in operational
    costs over the next 20 years, we assessed whether NASA is adequately managing the
    Program to ensure long-term demand for and viability of the observatory. Our audit
    work included reviewing Program policies and procedures, interviewing Program
    officials, and observing a science flight.24 We also interviewed scientists who have used
    SOFIA to conduct research, as well as scientists whose proposals were not selected for a
    flight. See Appendix A for details of the review’s scope and methodology, our review of
    internal controls, and a list of prior coverage.




    21
         House of Representatives Committee on Appropriations, “Report on Commerce, Justice, Science, and
         Related Agencies Appropriations Bill, 2015,” May 15, 2014.
    22
         Senate Committee on Appropriations, “Report on Departments of Commerce and Justice, and Science,
         and Related Agencies Appropriations Bill, 2015,” June 5, 2015.
    23
         House of Representatives Committee on Science, Space, and Technology, “National Aeronautics and
         Space Administration Authorization Act of 2014, Amendment 02,” April 28, 2014.
    24
         One of the primary targets of the flight was the newly discovered supernova in the M-82 galaxy.



8                                                                                         REPORT NO. IG-14-022
RESULTS




                                 IF CONTINUED, THE SOFIA PROGRAM FACES
                                 CHALLENGES TO ENSURE THE BEST POSSIBLE
                                                   RETURN ON INVESTMENT

              We found that despite substantial delays in reaching operational capacity, SOFIA
              remains capable of contributing to the body of scientific knowledge and many
              researchers view the observatory as a valuable resource. However, we understand
              that the SOFIA Program is competing for limited resources and that policymakers
              will have to decide whether other NASA projects are a higher scientific and
              budgetary priority. If the decision is made to continue the Program, we identified
              several challenges going forward. First, the Program must take steps to ensure that
              demand for the observatory, particularly from top-tier researchers, continues over
              SOFIA’s planned 20-year life. Second, from a volume of research perspective,
              SOFIA’s Level 1 requirement of 960 annual research hours may be too modest.
              Finally, the Program lacks procedures to assess science return per dollar invested.
              Failure by NASA to address these issues could reduce demand for the observatory
              and affect the quality of its science.

SOFIA’s Contributions to Science
   We found that despite the 13-year delay in reaching FOC, the science community
   remains interested in utilizing SOFIA. Although some researchers expressed frustration
   with the delay, the majority were impressed with the science SOFIA produced and were
   looking forward to future enhancements. As of May 2014, 45 research papers discussing
   data collected aboard SOFIA have been published in peer-reviewed journals, including an
   issue of The Astrophysical Journal Letters that featured eight such articles.25

   Researchers stated that although development delays caused SOFIA to miss opportunities
   to collaborate with the Hershel and Spitzer observatories, the telescope is still capable of
   performing observations that build on the work of those observatories. Researchers also
   told us SOFIA can make observations at wavelengths not covered by the James Webb
   Space Telescope and that although one of SOFIA’s instruments – the Echelon Cross
   Echelle Spectrograph – was designed to perform observations within Webb’s
   wavelength, SOFIA will do so with a much greater ability to separate wavelengths.




   25
        See The Astrophysical Journal Letters, 749:2, April 20, 2012, at http://iopscience.iop.org/2041-
        8205/749/2 (accessed May 8, 2014).



REPORT NO. IG-14-022                                                                                       9
                                                                                                              RESULTS



SOFIA Faces Operational Challenges That May Affect the Quality
  of Science Produced and its Long-Term Viability
     During the course of our audit, we identified five concerns regarding SOFIA’s long-term
     outlook: (1) consistent incorporation of new technology into the observatory’s suite of
     instruments; (2) formal and measurable outreach to the scientific community; (3) grant
     awards that may not be commensurate with the complexity and uniqueness of the
     observatory; (4) timely availability of observation data; and (5) lack of a formal process
     for rescheduling cancelled observations. We discuss each of these issues below.

     Introduction of New Technology May Be Too Infrequent. SOFIA can observe targets
     at a range of wavelengths and resolutions attainable by space telescopes; however, unlike
     space telescopes, SOFIA can be modified relatively easily to add new instruments or
     accommodate technological upgrades. Indeed, the ability to update SOFIA’s technical
     capabilities is one of the Program’s primary advantages and an important justification for
     its relatively high operating cost. Moreover, we found that current and potential users of
     SOFIA believe technology updates are vital to its success. We surveyed 18 members of
     the astronomical community and they identified introduction of new technology as the
     most important factor in ensuring SOFIA’s long-term relevance and success.26

     NASA plans to introduce technology upgrades for SOFIA on an ongoing basis
     throughout its operational life. These upgrades can be in the form of a new instrument
     that offers a completely different capability, a new version of an existing instrument, or
     the addition of a new feature to an existing instrument. For example, currently under
     development is an upgraded version of SOFIA’s High-resolution Airborne Wideband
     Camera, which will have the ability to measure magnetic fields in star-forming clouds
     and galaxies. The Science Mission Directorate is responsible for selecting which
     instruments to upgrade and allocating required funds. Directorate officials told us they
     plan to introduce at least one new or revised instrument to SOFIA’s research suite
     approximately every 4 years depending on available budget

     However, SOFIA’s Science Project team, which is responsible for instrument
     development and implementation, told us that based on their interactions with the
     research community they believe new technology should be introduced into SOFIA’s
     instruments suite approximately every 2 years.27 They believe a 2-year cycle would
     enhance opportunities to achieve new discovery-level science during observations and
     therefore encourage greater researcher participation. In addition to the lack of agreement
     regarding the rate of introducing new technology, we also found that the Program does
     not have a concrete plan that describes a schedule for implementing new technology or
     identifying the desired technology upgrade.

     26
          Our survey population included principal investigators, general investigators, and archival researchers.
     27
          SOFIA Program management is divided into a Science Project team located at Ames and a Platform
          Project team located at Armstrong. The Science Project team coordinates science mission execution and
          instrument development while the Platform Project team manages and maintains the airplane and
          associated systems.


10                                                                                           REPORT NO. IG-14-022
RESULTS



   The lack of agreement and a clear path forward on new technology infusion could
   jeopardize SOFIA’s ability to perform cutting-edge science and sustain its planned
   20-year operational life. As noted above, the user community believes technological
   adaptability is the most important factor to SOFIA’s success. Accordingly, NASA
   should establish a clear plan for technology upgrades that reassures the user community
   that SOFIA will continue to provide opportunities to perform discovery-level science.

   The Program Does Not Have a Formal Plan to Facilitate and Ensure Effectiveness
   of Outreach Efforts. Conducting effective and thorough outreach to the science
   community is vital to SOFIA’s long-term success. However, we found that the SOFIA
   Program has no formal plan to manage its scientific outreach efforts although it has a
   formal outreach plan for other types of users and has made some efforts to reach out to
   the scientific community.28 This contrasts with other science programs, such as in
   NASA’s Earth Science Division, which have formal outreach plans.

   According to Program officials, SOFIA’s Science Mission Operations Director and other
   SOFIA staff members meet informally to determine which scientific outreach activities
   the Program will pursue. Examples of activities in which the Program has engaged
   include presentations at American Astronomical Society meetings, teleconferences
   featuring astronomers familiar with SOFIA, and talks at major U.S. research universities.
   However, the Program does not have a formal plan that specifies which activities the
   Program is required to perform for the science community. The presence of a formal
   outreach plan aimed at the science community – the end-users of the observatory – could
   help ensure the Program plans and budgets for a specific amount of outreach each year
   and help it track and monitor its outreach efforts to ensure they are effective and cost
   efficient.29

   Funding May Not Be Sufficient for Researchers to Complete Projects. Similar to
   other NASA observatory programs, the SOFIA Program awards grants to researchers
   whose proposals it selects. For each selected proposal, the Program provides $2,000 to
   assist in developing an observation plan and an additional $3,000 per awarded research
   hour. Although some researchers receive outside support in the form of a salary or other
   funding from sources such as the National Science Foundation, others rely solely on the
   funding provided by the Program to execute their proposals. Typically, researchers use
   the NASA grants to hire graduate students to assist with data analysis and pay for travel
   and other expenses associated with conducting and publishing their research. We found
   that NASA’s current funding level may not be adequate to enable some researchers to
   complete their work and that the methodology the Program uses to determine award
   amounts may not reflect the cost and effort associated with SOFIA’s unique capabilities
   and instruments.


   28
        In addition to conducting science, the SOFIA Program has an Airborne Astronomy Ambassadors
        Program that targets teachers and students.
   29
        For example, the Program could track such metrics as the number of proposals submitted as a direct
        result of a particular outreach activity or attendance at events.



REPORT NO. IG-14-022                                                                                         11
                                                                                                              RESULTS



     Seven of eight researchers we spoke with who had received funding from the Program
     stated their awards were insufficient to enable them to complete their research.
     Moreover, by paying the same hourly rate for all proposals the Program’s funding
     formula does not adequately consider the varying levels of effort required to complete
     different research projects. For example, the Program pays the same hourly rate
     irrespective of whether the research requires a handful of images or hundreds of images.
     According to Program managers, they modeled SOFIA’s funding formula after the
     formula used for the Spitzer Space Telescope; however, unlike Spitzer, SOFIA has a
     multi-instrument suite with varying functionality and capabilities. Accordingly, a
     funding mechanism that considers the unique aspects and level of effort required on each
     specific proposal may better ensure that researchers have sufficient funding to complete
     their projects and publish their findings.

     The Program Has Not Fully Met its Data Product Delivery Goals. Data collected
     during observations is SOFIA’s primary output and the information researchers will use
     to publish papers and add to the body of astronomical knowledge. However, the raw data
     SOFIA collects needs to be processed and refined before researchers can analyze it. For
     example, some of the instruments produce data formatted in instrument-specific code that
     contains superfluous information resulting from instrument attributes and “noise” from
     cosmic rays or other sources that are not the focus of the research. The process of
     removing this superfluous information and refining the data is complex and, in many
     cases, time consuming. In general, contractor staff at Ames is responsible for processing
     and refining the data.30 Once processed, the staff distributes the data to the appropriate
     researchers via SOFIA’s online archive. After a period of 12 months, the data is
     accessible by the general scientific community and the public. The archived data is
     expected to be refined and processed to the point where a researcher can download a
     dataset, conduct the analysis, and publish the results.

     Although the Program has made some progress in timely delivering observational data to
     researchers, we found a backlog of data from the previous 10 months waiting to be
     processed. According to Program officials, as of January 2014, about 30 percent of
     collected data was not delivered to researchers within the timeframes set by the Program.
     SOFIA’s 2013 Call for Proposals provides the following data delivery goals: Level 1
     data will be provided to principal investigators within 24 hours; Level 2 data will be
     placed in the SOFIA archive within 2 weeks of completion of a flight series; and Level 3
     data will be placed in the archive within 4 weeks of completion of a flight series.31
     Program officials told us they have not been able to deliver some data sets in accordance
     with this timetable because they have yet to resolve technical challenges associated with
     data calibration.


     30
          For non-U.S. Principal Investigator-class instruments, the instrument team is responsible for processing
          the data.
     31
          Level 1 – raw data as provided by SOFIA instruments converted to a standard format. Level 2 – data that
          is corrected for instrument artifacts (e.g., bad pixels removed). Level 3 – data that is calibrated and made
          available to the science community in the SOFIA archive.



12                                                                                            REPORT NO. IG-14-022
RESULTS



   As SOFIA continues to operate and the observatory platform becomes more functional,
   the Program will execute more observations and flight hours and the increasing data
   volume may further delay data delivery. Significant delays could frustrate researchers,
   delay follow-up investigations, dissuade researchers from proposing future observations,
   and result in lessened support for the Program in the research community.

   The Program Lacks a Formal Procedure for Rescheduling Canceled Flights.
   Consistent with the practice of most other observatories, current SOFIA Program policy
   does not allow for rescheduling of observations cancelled due to bad weather, aircraft or
   instrument technical issues, or other unforeseen circumstances. However, because of
   SOFIA’s flexible maintenance schedule and because the Program already sets aside time
   to observe newly discovered comets or other objects, Program managers have found they
   are sometimes able to reschedule missed flights. When possible, Program managers
   reschedule observations deemed to have a strong probability of collecting cutting-edge
   science or that need only one additional observation to complete. For example, the
   Program intends to reschedule several missed flights likely to conduct “good” science
   cancelled because of the Federal Government shutdown in October 2013.32 Currently, an
   ad-hoc team of scientists – assembled and led by the Program’s Science Mission
   Operations Center Director – makes decisions about rescheduling observations, and
   the Program has no formal methodology that ensures consistency and objectivity in
   making these decisions. We believe development of a formal process would help
   avoid preferential treatment or the appearance of such treatment in the rescheduling
   selection process.

Requirement of 960 Annual Research Flight Hours May Not
  Provide Most Efficient Use of the Observatory
   Evolution of the Annual Operations Requirement. In 1994, when NASA managers
   first established SOFIA’s Level 1 requirements, they set 160 science-producing research
   flights per year as the initial measure of operational capability but did not specify the
   number of research hours expected on each flight. In 1996, NASA changed the
   expectation to an annual hourly requirement of 960 research hours based on 160 flights
   with 6 research hours per flight.33 Although this requirement has not changed since 1996,
   some of the underlying assumptions have, necessitating an assessment to determine
   whether NASA should increase or decrease the requirement to establish an efficient
   operating baseline for SOFIA as it enters its operations phase.




   32
        The Program’s Science Operations team determines the quality of science.
   33
        Total flight time, which is currently approximately 10 hours per flight, differs from research flight time
        because some flight time is needed for taking-off, landing, course adjustments, target acquisition, and
        instrument or telescope calibration. The 960-hour target applies to years after FOC+4. Before that date,
        NASA anticipates SOFIA will fly fewer hours due to increased maintenance needs as it builds toward the
        960-hour goal.



REPORT NO. IG-14-022                                                                                                 13
                                                                                                                RESULTS



     NASA currently supports the 960-research hour requirement with the following six
     assumptions:

            1. SOFIA will not fly for three 1-month periods in a typical year. This is an
               operational constraint for periodic maintenance of the Boeing 747SP aircraft and
               observatory systems upgrades.

            2. Research flights will be planned for 4 days per week. This is a financial
               constraint based on the cost of having multiple maintenance and operations
               support crew to support additional flights each week.

            3. The observatory will execute 91 percent of its scheduled flights. This is an
               assumed rate for the likelihood that weather or unexpected mechanical problems
               will prevent flight.

            4. Each flight will yield 8 research hours. This is an assumption of the actual hours
               the plane will be at the correct altitude and otherwise ready to conduct research.

            5. Observatory systems are 89 percent reliable. This is a probability factor derived
               from the aircraft industry’s experience with similar aircraft and includes reliability
               data from systems similar to those aboard SOFIA. NASA applied the rate to
               systems design and development requirements for instruments, telescope, and
               other payload systems.

            6. Fifty-one hours allocated to margin to allow for unexpected problems.

     We summarize NASA’s calculation of the 960-hour requirement in the table below.

                          Table. Basis for 960 Flight Research Hour Requirement
                  Assumption                                  Adjustment                          Net Availability
         Weeks per year                                             n/a                               52 weeks
         Maintenance and upgrade time              13 weeks (52 weeks x 25 percent)                   39 weeks
         Flights per week                    4 flights per week (39 weeks x 4 days/week)              156 flights
         Availability factor                         91 percent (156 flights x 0.91)                  142 flights
         Research hours per flight             8 hours per flight (142 flights x 8 hours)            1,136 hours
         Reliability factor                         89 percent (1,137 hours x 0.89)                  1,011 hours
         Margin                                   51 hours (1,011 hours – 51 hours)                   960 hoursa
     a
      The operational baseline at which SOFIA was developed to perform within established resource constraints is
      960 hours. The actual hours per year SOFIA is scheduled to fly varies depending on maintenance requirements and
      upgrade plans.
     Source: NASA OIG evaluation of Program material.




14                                                                                             REPORT NO. IG-14-022
RESULTS



   Requirement Assumptions Not Based on Current Data. NASA has not updated the
   assumptions used to derive the annual 960-hour requirement to reflect SOFIA’s actual
   performance. We found that performance data indicates SOFIA is likely to exceed some
   of the assumptions on which the requirement is based and therefore may have the
   capability to exceed the requirement.

   Operations Project management expects to reduce the amount of time required for
   periodic maintenance. NASA assumed 13 weeks for maintenance and upgrades. For
   purposes of this assumption, maintenance includes required and recommended
   maintenance, modifications and enhancements, aircraft discrepancies, special inspections,
   and addressing unexpected issues.34 Telescope maintenance, such as mirror recoating,
   will also be performed during this time. Operations Project management told us that
   13 weeks was sufficient for them to complete all required tasks. They also pointed out
   that the assumption was based on performance metrics for commercial crews working on
   multiple aircraft. However, the SOFIA maintenance crew will work only on the
   observatory and therefore managers expect the crew to become more efficient over time
   allowing them to reduce the length of maintenance periods.

   Actual flights indicate the Program can accomplish more than 8 research hours per
   flight. Over the span of Cycle 1 and Cycle 2 flights, the SOFIA Program has collected
   detailed performance data that reflects an average of 8.4 viable research hours per flight.
   The Program expects this figure to increase as staff builds knowledge and expertise in
   operating SOFIA’s systems.

   The 91 percent factor to account for weather and unexpected mechanical problems does
   not appear applicable to SOFIA’s actual operational environment. NASA developed this
   factor before deciding SOFIA would operate out of the desert environment of Palmdale,
   California. Operations Project management indicated that weather events that would
   prevent a flight are not a significant concern at the Palmdale airport. Moreover, although
   it is possible that weather could affect flight paths, preflight planning would most likely
   mitigate this risk. In addition, the risk of unexpected mechanical problems appears to be
   accounted for in the Program’s maintenance and reliability assumptions.

   The Program is likely to surpass the 89 percent reliability factor. NASA based this rate
   on a 1998 study that used commercial aircraft metrics to establish a combined reliability
   target of all SOFIA components.35 Operations Project management stated that they are
   on target to meet this goal and are confident that SOFIA will exceed it as systems mature.
   To support their contention, they noted NASA included this reliability goal in the design
   of the aircraft components and that SOFIA’s systems and subsystems are performing
   better than expected, made of high-quality components that exceed commercial grade

   34
        The observatory also requires significant maintenance every 5 to 7 years, time that is not accounted for in
        the 13 weeks. Rather, NASA adjusts the 960-hour requirement downward during heavy maintenance
        years.
   35
        Raytheon Corporation, “Allocation of Requirements for Reliability, Availability & Maintainability to the
        SOFIA System,” February 1998.



REPORT NO. IG-14-022                                                                                                  15
                                                                                                           RESULTS



     specifications, and subject to an increase in overall reliability as maintenance and support
     crews gain knowledge of the aircraft’s systems and subsystems.

     The margin applied does not appear to be necessary. Generally, margin allows programs
     and projects flexibility to address unknown and unexpected problems. However, there
     does not appear to be a need to apply a margin factor to SOFIA’s operational
     performance because some of the other assumptions have a built-in margin. For
     example, the maintenance period includes time for unknown problems and the reliability
     factor addresses unexpected issues.

     Based on our assessment of NASA’s assumptions, as well as discussions with SOFIA
     Program staff regarding actual observatory performance, it appears the Program is
     capable of more than 960 research flight hours per year. Given an estimated life-cycle
     cost of approximately $209,000 per planned research flight hour (annual operating costs
     of about $104,000 per planned research flight hour), establishing an optimal operational
     requirement for observation time that is properly balanced with quality of science and
     other competing priorities – such as technology upgrades, outreach activities, and
     researcher funding – is key to maximizing use of the observatory.36

The Program Lacks Procedures to Assess Science Return Output
  Over SOFIA’s 20-Year Expected Life
     Typically, NASA does not assess programs and projects for return on investment during
     their operations phase, but rather when they have completed their prime mission and are
     seeking to continue operating beyond that point (known as extended operations).
     However, with a planned operating life of 20 years and relatively high life-cycle
     operating costs of $1.9 billion, SOFIA is not a typical NASA program. For example,
     Spitzer had a planned operational life of 2.5 to 5 years and budgeted operating costs of
     approximately $70 million per year. Although SOFIA’s program plan provides for a
     biannual Program Implementation Review, that review will not address the value of the
     science obtained by the observatory relative to NASA’s investment or in the context of
     NASA’s overall science portfolio in the same way these factors are considered for
     extended missions.

     NASA reviews extended missions every 2 years through a process known as the Senior
     Review, which consists of panel members with scientific and technical expertise related
     to the mission they are tasked with reviewing. The primary purpose of the Senior
     Review is to determine the value of extending mission operations with the intent to
     maximize scientific returns within a constrained budget environment. The factors Senior
     Review panels consider include the number of papers produced by the researchers
     directly performing the observations, the amount of data accessed by other researchers,

     36
          Life-cycle cost per planned research flight hour = estimated life-cycle cost / planned NASA life-cycle
          research flight hours ($3.016 billion / 14,416 = $209,212). Annual operating cost per planned research
          flight hour = estimated annual operating cost / planned NASA annual research flight hours
          ($80 million / 768 = $104,167). DLR planned flight hours and costs are not included in these figures.



16                                                                                          REPORT NO. IG-14-022
RESULTS



   and how often ensuing research products cited its data. Given the unusually long
   duration of SOFIA’s initial operations phase, we believe NASA should subject the
   Program to Senior Review or a similar process during that phase.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
   If SOFIA continues in operation, we recommended the Associate Administrator for the
   Science Mission Directorate:

   Recommendation 1. Formulate an optimal plan for technology upgrades that will be
   adequate to encourage researcher participation over SOFIA’s planned operational life
   cycle.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that NASA will develop an Instrumentation Development
      Plan by December 31, 2014, to formalize the Program's approach to integration of
      new technologies and capabilities.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   Recommendation 2. Establish a timeline for SOFIA to be evaluated within the Senior
   Review or a similar process during its primary operational phase.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that by October 31, 2014, NASA will establish a plan for
      conducting a Senior Review of the SOFIA Program.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   We further recommended the Associate Administrator direct SOFIA Program managers to:
   Recommendation 3. Develop a formal plan for conducting outreach to the science
   community.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating NASA will direct USRA to develop a formal Science
      Community Outreach Plan by October 31, 2014.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.


REPORT NO. IG-14-022                                                                       17
                                                                                        RESULTS



     Recommendation 4. Develop a plan to fund research projects based on their
     complexity.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, stating that NASA will re-evaluate its approach for allocating
        funding and weigh any potential changes against other Program priorities. Any
        revisions to the funding algorithm will be made prior to NASA’s Call for Proposals in
        the spring of 2015.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.

     Recommendation 5. Develop a plan to reduce the backload of undelivered data and
     implement a plan to improve data delivery times.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, stating that NASA will direct USRA to provide a report on SOFIA
        data processing performance and, if necessary, direct USRA to provide corrective
        action by November 30, 2014.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.

     Recommendation 6. Implement a formal process governing rescheduling of flights.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, stating that the Project Scientist will develop and put in place a new
        policy by January 2015.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.




18                                                                         REPORT NO. IG-14-022
RESULTS



   Recommendation 7. Reassess the 960 research flight hours per year requirement.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that a reassessment may result in an annual research hour
      requirement that is less than, greater than, or equal to the current 960 hour
      requirement after all Program priorities are taken into account. By December 31,
      2014, NASA will formalize any changes to the annual research hour requirement in
      the Program Commitment Agreement.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.




REPORT NO. IG-14-022                                                                       19
                                                                                                              RESULTS




                                      ORGANIZATIONAL STRUCTURE DOES NOT
                                   PROVIDE ADEQUATE OVERSIGHT OF MISSION
                                                      CRITICAL FUNCTIONS

                NASA plans to reorganize SOFIA’s management structure for its operational phase
                and will have the opportunity to re-examine its current cost-plus-fixed-fee contract
                with USRA that expires in 2016. We found that the organizational structure NASA
                plans for the Program will not provide adequate Agency management and oversight
                of SOFIA’s science operations, the current contract does not provide for adequate
                management oversight of mission critical functions, and a cost-plus-fixed-fee model
                may not be the most cost efficient option for the Program going forward.

The Organization Structure for SOFIA’s Operations Phase Does
  Not Provide Adequate Agency Oversight of Science Functions
     Since the Program has achieved its FOC milestone, NASA is planning to move the
     SOFIA Program Office to Ames and divide its functions into three sections: Observatory
     Operations, Observatory Systems, and Science Mission Operations. Under the plan, civil
     servants will manage the first two sections and a USRA contract employee the third in
     the role of Director of the Science Mission Operations Center. The Director will oversee
     a team of USRA employees and his or her responsibilities will include evaluating,
     selecting, and awarding observation time; establishing a users group; conducting science
     research; scheduling and coordinating observation flights; and processing and archiving
     science data.37 The Director will report to the SOFIA Program Manager, with no
     intermediate management oversight by a civil servant (see Figure 7).




     37
          The SOFIA Users Group is comprised of active astronomers that meet at least once a year to advise the
          SOFIA Science Mission Operations Director on technical and operational matters relating to the
          scientific performance and health of the Observatory. In addition to representing outside scientists, the
          SOFIA Users Group represents the needs of SOFIA users and works closely with the observatory
          technical staff to provide technical and scientific advice and consultation for correcting problems and
          input on planning and implementing upgrades.



20                                                                                            REPORT NO. IG-14-022
RESULTS



                Figure 7. SOFIA’s Planned Management Structure after Full
                                 Operational Capability




   Source: NASA SOFIA Program.

   Although NASA plans to move the Program Manager from Armstrong to Ames where
   the USRA staff will be located beginning in FY 2015, in our judgment, the planned
   structure will not provide adequate Agency management and oversight of SOFIA’s
   science operations. Specifically, we do not believe it is reasonable to expect the Program
   Manager to monitor the operational decisions of the science operation functions
   adequately while simultaneously managing the geographically dispersed Program and
   day-to-day programmatic decisions.

Current Contract Does Not Include Adequate Management and
  Oversight of Mission Critical Functions
   As discussed above, USRA employees will manage, direct, monitor, and control a
   majority of SOFIA’s science operations as the Program continues in its operational
   phase. We believe that under Office of Federal Procurement Policy guidelines, these




REPORT NO. IG-14-022                                                                            21
                                                                                                          RESULTS



     functions are “necessary to [NASA] being able to effectively perform and maintain
     control of its mission and operations” and therefore “critical.”38 Office guidelines require
     agencies to

                ensure that Federal employees perform and/or manage critical functions to the extent
                necessary for the agency to operate effectively and maintain control of its mission and
                operations; …when work need not be reserved for Federal performance and
                contractor performance is appropriate, agencies shall take steps to employ and train
                an adequate number of government personnel to administer contracts and protect the
                public interest through the active and informed management and oversight of
                contractor performance, especially where contracts have been awarded for the
                performance of critical functions.

     Furthermore, of the five challenges we identified, four are contracted functions: science
     community outreach, research grant funding, data delivery, and observation rescheduling.

     In our judgment, NASA’s contract with USRA lacks the appropriate controls to ensure
     compliance with Office of Federal Procurement Policy guidelines. We compared the
     USRA contract with the Space Telescope Science Institute’s contract for operating
     Hubble. In contrast to the USRA contract, the statement of work for the Hubble contract
     includes specific steps to preserve Agency control over mission critical functions,
     including (1) having civil servants direct and authorize the contractor’s work, (2) training
     a civil servant on back-up systems operation, and (3) requiring independent performance
     assessments. In contrast, SOFIA’s contract with USRA does not provide for a civil
     servant under the Program Manager to direct and authorize the contractor’s work,
     appropriate back-up operation training for a civil servant, or an independent performance
     assessment.

Cost-Plus-Fixed-Fee May Not Be the Most Cost Efficient Contract
  Option Going Forward
     NASA’s current cost-plus-fixed-fee contract with USRA, in place since January 2007 and
     expiring in 2016, may not be the most cost efficient contract type for the Program’s
     operational phase. The Federal Acquisition Regulation provides that contract type is a
     function of risk, with the Government assuming more risk in the form of cost-type
     contracts when requirements are complex, such as for research and development projects,
     and the risk shifting to the contractor in the form of fixed-price contracts when
     requirements recur or production begins.39 The Regulation states that agencies should
     use cost-reimbursement contracts only when they cannot sufficiently define requirements
     or uncertainties make it too difficult to estimate costs for a fixed-price contract and warns
     that cost-type contracts “provide the contractor only a minimum incentive to control
     costs.”40 By 2016, SOFIA will have been operating at FOC for 2 years and the Program
     38
          Office of Federal Procurement Policy 11-01, October 12, 2011.
     39
          Federal Acquisition Regulation §16.104 “Factors in selecting contract types” para (d).
     40
          Federal Acquisition Regulation §16.306 “Cost-plus-fixed-fee contracts” para (a) and §16.301-2
          “Application.”



22                                                                                          REPORT NO. IG-14-022
RESULTS



   will have gained significant information about the level of effort needed to run its Science
   Mission Operations. Accordingly, we believe NASA should examine whether moving to
   a fixed-price contact would be appropriate.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
   The Associate Administrator for the Science Mission Directorate should:

   Recommendation 8. Reassess SOFIA’s organizational structure to ensure it provides an
   appropriate level of Government oversight of USRA.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that in addition to the Program Manager, the Project
      Scientist and the Contracting Officer’s Technical Representative maintain direct
      insight and oversight of the Science Management Office’s daily operations.
      However, by September 30, 2014, NASA will reassess the organizational structure to
      ensure an appropriate level of Government oversight of USRA.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   Recommendation 9. Reassess the existing contract with USRA to ensure that contracted
   functions determined to be critical for SOFIA to operate effectively are managed
   according to OFFP guidelines.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that as part of reassessing the SOFIA organizational
      structure, NASA will consult the Headquarters’ Offices of Procurement and General
      Counsel to assess SOFIA’s compliance with Office of Procurement Policy guidelines
      by September 30, 2014. In addition, NASA will evaluate the differences between the
      USRA’s SOFIA contract and the Space Telescope Science Institute’s Hubble Space
      Telescope contract and expeditiously implement any required corrective action.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.




REPORT NO. IG-14-022                                                                              23
                                                                                        RESULTS



     Recommendation 10. In anticipation of the end of the current contract with USRA in
     2016, consider whether a fixed-price contract would be more appropriate than the current
     cost-plus-fixed-fee contract.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, noting that the current contract with USRA was written during a
        different phase in the life of the Program. Therefore, NASA will evaluate all
        potential mechanisms for the follow-on contract and define a new procurement
        strategy by June 30, 2015.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.




24                                                                        REPORT NO. IG-14-022
RESULTS




                       UNCERTAINTY SURROUNDING SOFIA’S FUTURE
                           FUNDING HAS IMMEDIATE RAMIFICATIONS
                                               ON THE PROGRAM

          The President’s FY 2015 budget proposal would sharply reduce funding for SOFIA
          and place the observatory in storage unless partners assume NASA’s share of the
          Program’s $80 million annual operating costs. In contrast, the full House of
          Representatives approved $70 million and the U.S. Senate Committee on
          Appropriations proposed $87 million for SOFIA in FY 2015. Consequently, the
          Program must address a series of immediate challenges in this period of uncertainty,
          including whether and how to plan for a Program shutdown and possible reactivation
          or whether to continue moving forward with SOFIA’s planned research and
          maintenance activities.

Challenges to the Program’s Operational Continuity
   The SOFIA Program faces challenges in FYs 2014 and 2015 because of the proposed
   budget cuts, including finding partners to assume NASA’s share of costs, the possible
   loss of key personnel during this period of uncertainty, and delay of planned aircraft
   maintenance. As of July 2014, SOFIA Program management had not identified
   additional partners and was planning for and attempting to manage the impact of the
   proposed funding cuts. Program management also expressed the view that the proposed
   budget of $12.3 million was insufficient even to shut down the Program.

   NASA Has Not Identified Additional Partners. Program management has approached
   DLR about increasing its financial commitment to SOFIA, but to date DLR has declined
   to do so. In addition, on April 1, 2014, NASA issued a Request for Information soliciting
   potential partners interested in using SOFIA for scientific or other uses. According to
   Program management, the effort required to solicit and negotiate a serious partnership
   would take 1 to 2 years. As of July 2014, no organization has expressed interest in
   assuming any portion of NASA’s cost or in purchasing observation time aboard SOFIA.

   Risk of Losing Key Personnel. According to Program management, SOFIA staff –
   some of whom have highly specialized skills – will likely begin leaving the Program as
   early as May 2014 when planned science operations are completed before the aircraft’s
   scheduled heavy maintenance. Most jobs for astronomers and astrophysicists are with
   universities and the hiring cycle for these institutions coincides with the academic year.
   Therefore, SOFIA science team members and technical staff, who are primarily
   contractors, are likely to start looking for new positions immediately because waiting
   until the end of the fiscal year would limit their options. Moreover, the President’s FY
   2015 budget proposal of $12.3 million only covers NASA civil service personnel costs
   and does not provide funding for contracted personnel.




REPORT NO. IG-14-022                                                                            25
                                                                                            RESULTS



     The loss of mission critical science team staff could affect the Program’s ability to
     complete the remaining science flights scheduled for calendar year 2014. Moreover, the
     loss of mission critical staff could affect the Program’s ability to continue operations and
     meet science objectives for FY 2015, even if partners are identified to assume NASA’s
     share of operating costs or if Congress and the President reach an agreement to continue
     funding SOFIA at operational levels in FY 2015.

     Scheduled Heavy Maintenance Delayed. NASA planned to fly SOFIA to Germany to
     undergo approximately 5 months of heavy maintenance in June 2014; however, the
     certainty of the original plan was in question given the President’s budget proposal. DLR
     decided to delay the heavy maintenance by 1 month to allow congressional review of the
     President’s budget proposal. Subsequently, NASA flew SOFIA to Germany at the end of
     June and began undergoing heavy maintenance in July 2014.

     Insufficient Funding to Execute Storage Option in FY 2015. Under the President’s
     proposed budget, NASA will have $12.3 million to develop and execute plans to store
     SOFIA if the Agency cannot find partners to assume their share of the operating costs.
     Program management stated that the proposal has insufficient schedule and budget to
     execute any options going forward. Specifically, SOFIA Program officials said the
     $12.3 million will only cover civil servant labor and associated expenses for the year
     and not disposition costs, such as the hangar lease, contract labor for aircraft storage
     support, building operating costs, servicing of life support systems, and ground support
     equipment upkeep.

Challenges in Storing SOFIA
     Placing SOFIA in storage will entail extra expenses for maintenance and replacement of
     aged parts if the Program is reactivated. These costs will vary depending on how SOFIA
     is stored and for how long.

     Cost of Cold Storage Option. If SOFIA goes into cold storage with little maintenance
     and operational readiness upkeep, NASA will incur lower storage costs but higher
     reactivation costs as aircraft parts and components degrade. Replacement parts will be
     more difficult to acquire because they are becoming obsolete as time passes. SOFIA’s
     747SP aircraft started flying in 1977 and Boeing built the last of this model in 1987.
     Currently, only 18 747SPs remain in operation, and those aircraft compete for a
     decreasing supply of replacement parts. While NASA Operations management feels
     confident that it has acquired sufficient critical replacement parts for SOFIA’s current
     planned 20-year operational life, this could change based on how long the aircraft
     is stored.




26                                                                            REPORT NO. IG-14-022
RESULTS



   Cost of Operational-Readiness Storage Option. Conversely, if SOFIA is maintained
   in a state of operational readiness, the costs incurred during the storage period will be
   higher with lower reactivation costs. Nonetheless, NASA has not made a determination
   of how and for how long the observatory will be stored nor has it performed
   corresponding cost analyses.

   Cost of Training and Replacing Personnel. NASA will eliminate nonessential civil
   servant positions if it places SOFIA in storage. Consequently, the Agency will incur
   additional costs to train new staff if the plane is taken out of storage and the Program is
   reactivated. More importantly, some of the positions currently staffed by contractors,
   such as telescope operators and science team members, are highly skilled and difficult to
   replace. Recruiting and training new staff for these positions will be costly and
   challenging.




REPORT NO. IG-14-022                                                                             27
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

   We performed this audit from July 2013 through June 2014 in accordance with generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We performed work at NASA Headquarters, Ames Research Center, and Armstrong
   Flight Research Center. We conducted interviews across multiple levels of Program and
   Directorate management at Headquarters and each Center, and observed an operational
   science flight to gain an understanding of Program practices and status. We interviewed
   science community members to assess their interest in the observatory and identify
   operational concerns. We also reviewed NASA contract NAS2-97001 to determine
   contractual requirements for USRA operations. Finally, we obtained and reviewed
   copies of the Program Implementation Review Report, and monthly and quarterly status
   reports.

   Use of Computer-Processed Data. We used computer-processed data to perform this
   audit. We obtained and reviewed Earned Value Management reports and research
   proposal lists. We did not test the general or application controls for the systems that
   generated either of these reports.

Review of Internal Controls
   We reviewed and evaluated the internal controls associated with NASA’s management of
   the SOFIA Program and its operations. We noted concerns as discussed in the report.
   Our recommendations, if implemented, should address the concerns.

Prior Coverage
   During the last 5 years, the NASA Office of Inspector General (OIG) and the
   Government Accountability Office (GAO) have issued six reports of particular relevance
   to the subject of this report. Unrestricted reports can be accessed over the Internet at
   http://oig.nasa.gov/audits/reports/FY14 and http://www.gao.gov, respectively.




REPORT NO. IG-14-022                                                                            29
                                                                                APPENDIX A



     NASA Office of Inspector General

     “Final Memorandum on Audit of the Stratospheric Observatory for Infrared Astronomy
     (SOFIA) Program Management Effectiveness” (IG-09-013, March 27, 2009)

     Government Accountability Office

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-14-338SP,
     April 15, 2014)

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-13-276SP,
     April 17, 2013)

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-12-207SP,
     March 1, 2012)

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-11-239SP,
     March 3, 2011)

     “NASA: Assessments of Selected Large-Scale Projects” (GAO-10-227SP,
      February 1, 2010)




30                                                                     REPORT NO. IG-14-022
       APPENDIX B




                                                                   SOFIA’S INSTRUMENT SUITE


                                                              Developing    Instrument     Wavelength    Year
  Science Instrument            Acronym           Class
                                                              Institution      Type         Coverage  Commissioned
 Faint Object Infrared
                                                               Cornell      Mid/Far-IR       5 - 40
 Camera for the                FORCAST           Facility                                                    2013
                                                              University     Camera         microns
 SOFIA Telescope
                                                              Max Planck
 German Receiver for                                                             IR
                                                 Principal     Institute,                   60 - 200
 Astronomy at THz                GREAT                                       Heterodyne                      2013
                                               Investigator      Bonn                       microns
 Frequencies                                                                Spectrometer
                                                              (Germany)
                                          Special
 High-speed Imaging                                                         High-speed
                                         Purpose      Lowell                                0.3 - 1.1
 Photometer for                 HIPO                                         Imaging                         2013
                                         Principal  Observatory                             microns
 Occultation                                                                Photometer
                                       Investigator
                                                     University
 First-Light Infrared                                    of
                                                                            Near-IR Test     1-5
 Test Experiment              FLITECAM    Facility  California –                                             2014
                                                                              Camera        microns
 Camera                                                 Los
                                                      Angeles
 Field-Imaging Far-                                  University
                                         Principal                            Imaging       50 - 200
 Infrared Line                 FIFI-LS              of Stuttgart                                             2014
                                       Investigator                         Spectrometer    microns
 Spectrometer                                       (Germany)
                                                     University
 Echelon Cross                           Principal       of                   Echelon       4.5 - 28.3
                                EXES                                                                     2014 (Planned)
 Echelle Spectrograph                  Investigator California –            Spectrograph     microns
                                                       Davis
                                                                              Far-IR
 High-resolution                                                 Jet
                                                                            Bolometer       50 - 240
 Airborne Wideband              HAWC+            Facility     Propulsion                                 2015 (Planned)
                                                                            Camera and      microns
 Camera                                                       Laboratory
                                                                            Polarimeter
Note: IR – Infrared; THz – Terahertz.
Source: NASA OIG evaluation of Program data.




       REPORT NO. IG-14-022                                                                                    31
                      APPENDIX C




     MANAGEMENT COMMENTS




32            REPORT NO. IG-14-022
APPENDIX C




REPORT NO. IG-14-022   33
             APPENDIX C




34   REPORT NO. IG-14-022
APPENDIX C




REPORT NO. IG-14-022   35
                                                                              APPENDIX D




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration
     Administrator
     Chief of Staff
     Chief Financial Officer
     Associate Administrator for Science
     Ames Research Center Director
     Armstrong Flight Research Center Director

Non-NASA Organizations and Individuals
     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Managing Director, Office of Financial Management and Assurance
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member
     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




36                                                                    REPORT NO. IG-14-022
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Stephen Siu, Project Manager
   Gerardo Saucedo, Lead Auditor
   Michael Day, Management Analyst
   Tiffany Xu, Management Analyst
   Earl Baker, OIG Associate Counsel (Western Region)
   Sarah McGrath, Report Process Manager




REPORT NO. IG-14-022                                                         37
                                                                                      JULY 9, 2014
                                                                    REPORT NO. IG-14-022




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
